U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 14, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Courtney Wild v. United States District Court
for the Southern District of Florida
S.Ct. No. 21-351
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 31,
2021, and placed on the docket on September 3, 2021. The government’s response is due on
October 4, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 3, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-0351
WILD, COURTNEY
USDC FOR THE SDFL

PAUL G. CASSELL
S.J. QUINNEY COLLEGE OF LAW
THE UNIVERSITY OF UTAH
332 SOUTH 1400 EAST
ROOM 101
SALT LAKE CITY, UT 84112-0730
801-585-5202
CASSELLP@LAW.UTAH.EDU
BRADLEY J. EDWARDS
EDWARDS POTTINGER LP
425 NORTH ANDREWS AVENUE
SUITE 2
,
800-400-1098
ALLYSON N. HO
GIBSON, DUNN & CRUTCHER LLP
2001 ROSS AVENUE
DALLAS, TX 75201-2911
214-698-3233
AHO@GIBSONDUNN.COM
JAY HOWELL
JAY HOWELL & ASSOCIATES
644 CESERY BLVD.
SUITE 250
JACKSONVILLE, FL 32211
904-680-1234

